                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 109080055                                                                      Page 1 of 1



         The 010 initiated an investigation Based on a preliminary inquiry that found questionable
         expenses associated with an educational institution's! NSF award?

         The 010 requested clarification on $88,281.22 of expenses, of which, $43,470.26 3 was
         associated with subawardee payroll expenses charged to the NSF award.

         We found no signs of fraudulent activity. The institution provided documentation that supported
         the questionable expenses. However, the institution did not provide time and effort reports for
         the questioned subawardee salary expenses.

         The 010 will send the institution a letter advising them of their responsibility to ensure that the
         costs of subawards to educational institutions are subject to the cost principles and procedures of
         Office of Management and Budget (OMB) Circular A-21, in particular the provisions pertaining
         to time and effort reporting and certification of salaries charged to federal awards.       '

         This case is closed.




NSF OIG Form 2 (!1/02)
